in

e Supreme Court o! tjje ®mteb Htfateg
No.
PETER N. MYMA,
Petitioner,
vs.
WENDY A. WROE,
Respondent.
On Petition for a Writ of Certiorari to
the Indiana Supreme Court

UPDATED CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5(c), I certify that service on the
below listed date, three bound copies of the above captioned document was made on
counsel for respondent, Wanda Jones and Jay Charon, both at 54 S Jefferson St.,
PO Box 1759, Nashville IN 47448-1759, via US certified mail No. 7018 2290 0000
0146 3364. The mailing was made on June 28, 2020 and was delivered on July 1,
2020. In compliance with 28 U. S. C. § 1746,1 declare under penalty of perjury
that the foregoing is true and correct.
Executed on July 7, 2020
PETER N. MYMA

■W

^UuimA
v

/ s/
/Peter Myma/

RECEIVED
JUL M 2020
l_.SIJPREMEfCTOURrLnQf<

